 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




RYAN WHITE EVALUATION SYSTEMS

    AIDS Drug Assistance Program




                    JUNE GIBBS BROWN
                     Inspector General

                        AUGUST 1999
                       OEI-05-98-00390
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago Regional Office prepared this report under the direction of William Moran,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

William Moran, Project Leader
                          Elise Stein, Program Specialist
Ann Maxwell, Lead Analyst
                              Rada Spencer, Program Specialist
Victoria Jacobs, Analyst
                               Alan Levine, Program Specialist
Nora Leibowitz, Analyst

Vince Greiber, New York Regional Office





       To obtain copies of this report, please call the Chicago Regional Office at (312) 353-9867.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                     EXECUTIVE                      SUMMARY

PURPOSE

       To examine the evaluation systems established by Ryan White AIDS Drug Assistance
       Programs (ADAPs) to monitor program compliance, measure client outcomes and
       measure overall effectiveness.


BACKGROUND

       In 1990, Congress passed the Ryan White Comprehensive AIDS Resource Emergency
       (CARE) Act as a comprehensive response to the HIV epidemic and its impact on
       individuals, families, communities, cities and States. The AIDS Drug Assistance Program
       provides medications to low-income people living with HIV/AIDS that are uninsured or
       under-insured and lack coverage for medications. In fiscal year (FY) 1999, Congress
       appropriated $461 million of Title II funds to finance drug assistance programs. This is an
       increase of 61 percent over FY 1998 when States received $285.5 million in Title II
       ADAP funds.

       The Ryan White CARE Act will be considered for re-authorization in the year 2000. As
       Congress debates this re-authorization, questions are certain to be asked about the
       effectiveness and impact of the programs funded. This inspection examines the capacity of
       AIDS Drug Assistance Programs to answer those questions.

       We conducted an examination of the evaluation mechanisms used by eight Title II ADAPs
       through an extensive documentation review and on-site interviews. The States visited
       represent 68 percent of the living AIDS cases reported in 1997 and 61 percent of the Title
       II funding for FY 1998.


FINDINGS

The AIDS Drug Assistance Programs in the Eight States We Visited Have
Sufficient Programmatic and Fiscal Monitoring Mechanisms in Place

       The ADAP administrators closely monitor program and fiscal activity through the review
       of routine reports. Fiscal control over expenditures is further maintained by employing a
       variety of cost containment strategies to purchase the drugs at the lowest possible price.
       Program enrollment is monitored through the use of standardized enrollment procedures


    Evaluation Systems: ADAP                    1                                     OEI-05-98-00390
      and centralized processing. All ADAPs rely on regular, automated matches with Medicaid
      databases as the primary tool to assure that ADAP funds are being used as the payor of
      last resort.

While Most ADAPs Rely on Process Measures to Gauge Program Progress, a Few
are Developing Ways to Measure Client Outcomes

      Most ADAP administrators reported that they rely on program utilization data to assess
      the success of their program. However, an increasing number of administrators are taking
      on the responsibility of monitoring program impact to improve program efficiency and
      effectiveness and to respond to demands for greater accountability. On the other hand,
      some ADAP administrators are of the opinion that measuring outcomes is not an
      appropriate way to expend limited resources. They argue that it is best to rely on medical
      research professionals to measure clinical outcomes and that requiring ADAPs to measure
      outcomes would duplicate work already being done in the medical field.

ADAPs are Conducting Minimal Assessments of Whether They are Reaching
Populations in Need

      All ADAPs indicated that they match the demographics of enrolled clients to the
      demographic profile of the epidemic as a measure of how they are meeting population
      needs. Despite the understood disadvantages of relying on this method to assess program
      effectiveness, ADAPs have not found other, more sophisticated means to assess whether
      they are reaching populations in need.

RECOMMENDATIONS

To Promote Outcome Measurement, HRSA Should Encourage ADAPs to Compare
Utilization Data to Recommended Clinical Guidelines

      The Health Resources and Services Administration (HRSA) should require drug assistance
      programs to review whether drugs are dispensed in accordance with the Guidelines for the
      Use of Antiretroviral Agents in HIV Infected Adults and Adolescents. Requiring ADAPs
      to compare their utilization data to these recommended clinical guidelines provides a
      means to extrapolate medically indicated client health outcomes from utilization data.

      Given that ADAP clients may also be receiving HIV-related drugs from other sources,
      HRSA should encourage ADAPs to expand their relationships with Medicaid to enable an
      annual exchange of information on prescription drugs dispensed to ADAP clients..

      While not a rigorous scientific measure of program impact, with or without secondary
      data sources, this comparison would provide a general sense of ADAP’s contribution to


   Evaluation Systems: ADAP                   2                                     OEI-05-98-00390
       client health outcomes. It would also allow for the analysis of patterns and trends that
       would suggest more in-depth explorations of client outcomes and program impact.
       Finally, it is a logical next step in understanding the impact of the ADAP program. The
       current Ryan White application guidance requires ADAPs to report the number of clients
       receiving protease inhibitors. The HRSA could simply expand this requirement to include
       a broader range of drugs along with a narrative comparison of how utilization patterns
       match the recommended clinical guidelines.

The HRSA Should Encourage Collaborative Efforts among Ryan White Titles to
Monitor Client Adherence to Drug Regimens

       Since positive health outcomes cannot be expected unless clients adhere to prescribed
       drug regimens, HRSA should work with adherence initiatives where they exist and
       encourage other Title I and Title II grantees, in consultation with ADAP, to promote and
       evaluate adherence. Given the difficulty of this complex behavioral and socio-economic
       issue, initiatives will likely require a combination of local resources.

The HRSA Should Instruct ADAPs to Collaborate with Title I and Title II Needs
Assessment Efforts to Assure That They Explicitly Evaluate Medication Therapy
Needs

       To better assess unmet need, ADAP liaisons should work with and support current Title I
       or Title II needs assessment efforts. The ADAP liaisons should also ensure that needs
       assessment efforts actively solicit information from current ADAP clients as well as
       HIV-infected persons currently not enrolled in ADAP.

AGENCY COMMENTS

       The HRSA provided comments on the draft report in which they did not concur with the
       first and third recommendations. The complete text of HRSA’s comments can be found in
       Appendix A.

       Regarding the first recommendation, HRSA stated that they did not have the statutory
       authority to require ADAPs to match client utilization data to NIH/PHS guidelines. The
       HRSA also stated that the data available to ADAPs would be insufficient to make this
       analysis meaningful.

       In response to HRSA’s concern regarding appropriate authority, the recommendation was
       altered to remove the implication of a statutory requirement. However, developing
       outcome measures for ADAP remains an important step in the evolution of the program.
       Matching utilization patterns to the National Institutes for Health/Public Health Service
       (NIH/PHS) Guidelines for the Use of Antiretroviral Agents in HIV Infected Adults and
       Adolescents would provide a general sense of ADAP’s contribution to client health

    Evaluation Systems: ADAP                   3                                    OEI-05-98-00390
   outcomes. It is also a logical first step in outcome development. The HRSA already
   requires ADAPs to present a break-out of the utilization of protease inhibitors in their
   annual application for funds. Our recommendation would simply broaden this requirement
   to include an analysis of utilization by nationally recommended drug therapies.

   We appreciate HRSA’s concerns regarding the impact of incomplete utilization data. It is
   for this reason that we suggested ADAPs expand their current relationships with Medicaid
   to include a data match on drug utilization. This data sharing agreement could be based
   on the model data sharing agreement disseminated as part of the 1998 HRSA, Health
   Care Financing Administration (HCFA), and Centers for Disease Control (CDC) inter-
   agency agreement to promote the development of integrated public health information
   systems.

   Even with data limitations, the comparison of utilization data to drug therapy guidelines
   provides a sense of program contribution. Our recommendation to use this limited
   measure of program outcome builds on the United Way model which allows programs to
   take credit for their contribution to client outcomes while recognizing the practical
   limitations of assessing attribution in the absence of complete data.

   The HRSA also did not concur with the third recommendation that ADAPs should
   collaborate with Title I and Title II needs assessment efforts. They stated that ADAP was
   not the appropriate entity to take the lead in collaborative efforts with the other Ryan
   White programs.

   It was not our intention to imply that ADAP should take the lead in collaborating between
   the Ryan White programs. Rather, our recommendation directed ADAPs to more closely
   participate in the required Title I and Title II needs assessment efforts in order to have
   their evaluation needs better met. The HRSA’s stated intention to include instructions in
   the Title I application guidance regarding collaboration with ADAP reflects our intention
   to promote the level of meaningful collaboration between ADAP and the other CARE Act
   programs.




Evaluation Systems: ADAP                   4                                     OEI-05-98-00390
                        TABLE                    OF            CONTENTS



                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS

      Sufficient Monitoring Mechanisms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


         Most use Utilization Data, Few Developing Outcome Measures . . . . . . . . . . . . . . . . . . 13


         Minimal Assessments of Unmet Need . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


APPENDIX

    A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


         B: Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . 32





      Evaluation Systems: ADAP                             5                                              OEI-05-98-00392
                              INTRODUCTION

PURPOSE

      To examine the evaluation systems established by Ryan White AIDS Drug Assistance
      Programs (ADAPs) to monitor program compliance, measure client outcomes and
      measure overall effectiveness.

BACKGROUND

      This study complements our reports entitled Ryan White Evaluation Systems, Title I:
      Grants to Metropolitan Areas (OEI-05-98-00392) and Ryan White Evaluation Systems,
      Title II: Grants to States (OEI-05-98-00393).

Ryan White CARE Act

      In 1990, Congress passed the Ryan White Comprehensive AIDS Resource Emergency
      (CARE) Act as a comprehensive response to the HIV epidemic and its impact on
      individuals, families, communities, cities and States. The Ryan White programs provide
      health care and support services to persons with HIV/AIDS who would otherwise not
      have access to care. The Health Resources and Services Administration (HRSA) directs
      Ryan White resources to various local entities through the Act's four titles and Part F.

      The Ryan White programs constitute slightly over $1 billion of the $6.8 billion in
      HIV/AIDS expenditures included in the U.S. Department of Health and Human
      Services (DHHS) fiscal year (FY) 1998 budget. The bulk of Ryan White funds are
      allocated through Titles I and II of the Act. In FY 1998, nearly 90 percent of the Act’s
      funds were awarded to Title I and Title II grantees.

      The Ryan White CARE Act was re-authorized in 1996 through the year 2000. Changes to
      the Act in the re-authorization included a directive to Title I and Title II grantees to
      prioritize a portion of their funds for emerging populations.

AIDS Drug Assistance Program

      Title II of the Ryan White CARE Act provides grants to States to improve the quality,
      availability and organization of health care and support services for individuals and
      families with HIV/AIDS. Section 2616(a) of the CARE Act requires States to use a
      portion of their Title II funds to establish an AIDS Drug Assistance Program. States are
      allowed to determine unique financial and medical eligibility for the ADAP in their State.


   Evaluation Systems: ADAP                    6                                      OEI-05-98-00390
       States are also allowed to determine what drugs will be included in their formularies, how
       the drugs will be purchased and how the drugs will be distributed to clients.

       In FY 1999, Congress appropriated $461 million in Title II funds to be used for ADAP.
       This is an increase of 61 percent over FY 1998 when States received $285.5 million in
       Title II ADAP funds. These ADAP funds are typically augmented by contributions from
       State general revenue funds and, to a lesser extent, Title I grants. The mission of ADAP is
       to serve low-income people living with HIV/AIDS that are uninsured or under-insured and
       lack coverage for medications.

       The need for financial assistance to support expensive HIV/AIDS drug regimens was first
       identified in 1987 when Congress provided an emergency appropriation of $30 million to
       States. Beginning in late 1995, combination antiretroviral therapies, which include
       protease inhibitors, emerged as a new standard of care and ADAPs experienced explosive
       growth in enrollment and utilization. In November 1997, DHHS published Guidelines for
       the Use of Antiretroviral Agents in HIV Infected Adults and Adolescents developed by the
       Panel on Clinical Practices for Treatment of HIV Infection convened by the Department
       and the Henry J. Kaiser Family Foundation. These guidelines encouraged aggressive
       antiretroviral therapy for a broad range of HIV infected individuals, creating even greater
       demand for the program. In 1998, ADAPs served approximately 108,000 people with
       HIV/AIDS.

Ryan White CARE Act Evaluation Requirements

       Section 2616(c)(5) of the Ryan White CARE Act requires that States document the
       progress made in making therapeutics available to individuals eligible for assistance.
       Section 2616(d) requires that the Secretary review the current status of State drug
       reimbursement programs, assess the barriers to the expanded availability of treatments,
       and examine the extent to which States coordinate with other Ryan White grantees to
       reduce barriers to the expanded availability of the treatments.

       The Ryan White CARE Act includes caps on the amount of funds Title II grantees,
       inclusive of ADAP, can spend on administrative and planning/evaluation functions.
       Grantees cannot exceed a 10 percent administrative cap and a 10 percent
       planning/evaluation cap, the combined total of which cannot exceed 15 percent. Grantees
       can pay for needs assessments, program evaluation and service delivery assessments out of
       their planning/evaluation cap.

HRSA’s Current Evaluation Requirements

       In the FY 1998 Application Guidance, States were asked, for the first time, to complete an
       ADAP State Profile. The FY 1998 guidance also required a narrative description of



    Evaluation Systems: ADAP                    7                                     OEI-05-98-00390
       agency administration, funding sources, formulary, eligibility criteria, client utilization,
       cost-savings strategies and coordination with other Ryan White funded services.

       The FY 1998 guidance also asked ADAPs to: 1) describe their system for tracking
       utilization and expenditure information on a monthly basis, 2) describe any significant
       changes in client and drug utilization, 3) compare the demographic characteristics of
       ADAP clients to the demographic characteristics of the HIV epidemic of their State and
       discuss any discrepancies, and 4) describe the barriers to access and plans to enroll under-
       served populations. The FY 1999 application asks that ADAPs provide a brief overview
       of client enrollment and utilization trends. It does not provide direction on how this
       should be achieved.

       The ADAPs are also required, as a condition of their award, to file monthly and annual
       reports with HRSA. The monthly reports track enrollment and average monthly
       utilization. They specify a break-out for the utilization of protease inhibitors. The annual
       administrative report requires ADAPs to document the services they provide and the
       characteristics of clients receiving services.

       As a program administered by the State under Title II, ADAPs are required to outline
       goals and objectives for the upcoming year in an Implementation Plan. These must be
       accompanied by the service or outcome measure used to evaluate goal attainment. The
       application guidance includes people served and units of service as examples of
       outcome/service measures. The achievement of these goals must be reported in the next
       year’s application.

Re-authorization

       The Ryan White CARE Act of 1990 will be considered for its second re-authorization in
       2000. As Congress debates this re-authorization, questions are certain to be asked about
       the effectiveness and impact of the Ryan White programs. Grantees and administrators
       will also be asked to account for whether and how the programs have evolved to meet the
       shifting needs of the communities served.


SCOPE AND METHODOLOGY

       This inspection is an examination of the evaluation systems established by State AIDS
       Drug Assistance Programs. Specifically, this report documents the mechanisms ADAPs
       use to monitor their program compliance, measure client outcomes, and assess their
       effectiveness in meeting the evolving needs of the population affected by the epidemic.
       This evaluation does not judge the compliance, measure the outcomes or assess the
       effectiveness of the ADAPs, but rather judges whether the drug assistance programs have



    Evaluation Systems: ADAP                      8                                        OEI-05-98-00390
   and appropriately utilize the tools to perform these evaluation functions. This study also
   does not examine HRSA’s monitoring and evaluation of the ADAPs.

   For the purposes of this analysis, we define compliance as serving the population,
   providing the services and spending the resources as agreed to in return for the award of
   program funds. Outcomes are defined as measures of the benefits clients derived as a
   result of the program. Finally, we define overall effectiveness as how well the mix of
   services meets the evolving needs of the population affected by the epidemic.

   A purposive sample of eight Title II drug assistance programs were selected for this
   evaluation. The sampled ADAPs consist of New York, New Jersey, Maryland, Florida,
   Illinois, Texas, California and the District of Columbia. The sites were selected based on
   the number of reported AIDS cases, FY 1998 Ryan White funding, high incidence of
   intravenous drug use transmission, the demographics of the AIDS/HIV population, and
   the regional diversity of the sites. These seven States and DC represent 68 percent of the
   living AIDS cases reported in 1997 and 61 percent of the Title II funding for FY 1998.

   For each of the eight drug assistance programs selected, we conducted an extensive
   document review. We reviewed their FY 1998 grant application, templates of their
   programmatic and fiscal reports, enrollment guidelines, client satisfaction surveys and any
   other documents pertaining to their use of outcomes or evaluations of the overall
   effectiveness of the program.

   We also conducted on-site interviews with the sampled ADAPs between October and
   December 1998. We interviewed the ADAP administrator and any staff responsible for
   monitoring, outcomes or evaluation.

   In addition to our survey work, we interviewed knowledgeable organizations such as the
   Center for Disease Control (CDC), the HIV/AIDS Bureau of the Health Resources and
   Services Administration and the Office of HIV/AIDS Policy. These meetings were
   complimented by background materials on the Ryan White program provided by HRSA.

   We conducted our review in accordance with the Quality Standards for Inspections issued
   by the President’s Council on Integrity and Efficiency.




Evaluation Systems: ADAP                    9                                      OEI-05-98-00390
                                    FINDINGS

The AIDS Drug Assistance Programs in the eight States we
visited have sufficient programmatic and fiscal monitoring
mechanisms in place
Routine program and fiscal reports

       The ADAP administrators monitor program activity through the review of routine
       programmatic reports. These activity reports are typically reviewed on a monthly and,
       sometimes weekly, basis. They contain aggregate data on program processes such as the
       number of clients enrolled, newly approved applications, the number of clients served, the
       number of prescriptions filled by drug and the number of clients receiving each covered
       drug. One ADAP receives a standard set of 13 tables every month that includes an
       unduplicated client count, new enrollees by ethnic group and county, CD4 count by age
       group, client income by county, insurance status, etc. Typically, the point-in-time data
       provided on a monthly basis is analyzed longitudinally to detect enrollment and utilization
       trends and project utilization needs for the future.

       The ADAPs ensure the fiscal integrity of their programs by monitoring regular reports of
       their program expenditures. Weekly batches of pharmacy claims are bundled into monthly
       expenditure reports. These financial reports usually provide an accounting of expenditures
       during the reporting month and year-to-date figures. Some ADAPs produce more
       complex financial reports that include items such as average cost per prescription, average
       cost per client and average fills per client. Expenditure reports are typically accompanied
       by supporting documentation such as the payroll register, pharmacy claims for drugs
       dispensed and orders for drugs.

Centralized databases facilitate routine reporting, but remain under-utilized

       All of the programmatic and fiscal reports used to monitor program performance are
       created off of centralized computer data management systems. These administrative data
       systems track confidential client demographic and service information as well as claims
       information. One State maintains 1,000 fields on each client including basic
       demographics, income information, insurance, CD4 count, viral load, disease staging
       information, treatment history, risk factor, and so forth.

       Despite the rich resource of data contained in these centralized data systems, some
       administrators do not fully utilize the capabilities at their disposal. Most of the ADAP



    Evaluation Systems: ADAP                    10                                     OEI-05-98-00390
       administrators indicated that their centralized data systems allow instant and easy access to
       a variety of up-to-the-minute, client level program data and analyses. Further, they stated
       that the databases provide the capacity to respond to emerging program and policy issues
       with quantitative analysis. However, only half of the ADAPs mentioned actually using
       their databases in this manner. For example, one of these ADAPs recently used their
       database to respond to concerns regarding the number of pediatric cases, the number of
       women served, and high utilization rates in particular counties and pharmacies. Other
       administrators feel that while they are collecting all of the necessary programmatic data,
       they have yet to realize the full potential of the data to assist in program management and
       evaluation.

Standard eligibility criteria are uniformly enforced

       Standard enrollment forms, and training on how to appropriately complete them, are used
       to ensure that all required eligibility information is obtained in a consistent manner.
       Standard forms enhance the efficiency of enrollment procedures and the ability to evaluate
       the accuracy of the data. These forms are extensive and typically request demographic,
       financial and medical information in accordance with State eligibility rules. Appropriate
       support documentation is also required such as personal identification cards, income
       verification statements and a physician signed medical certification of HIV diagnosis. One
       State AIDS Drug Assistance Program trimmed 2,000 duplicates from its rolls last year
       when it standardized its eligibility screening and enrollment practices.

       All ADAPs centrally review enrollment forms and the supporting documentation for
       completeness and accuracy. The central screening and processing of enrollment
       applications helps ensure a uniform enforcement of the program eligibility rules. It also
       helps prevent duplication of services and other fraud. Some ADAPs have further
       centralized the enrollment process by requiring all application forms to be sent to the
       central administration office for initial eligibility determination.

       Seven of the ADAPs visited redetermine eligibility on an annual or semi-annual basis. One
       AIDS Drug Assistance Program only initiates redetermination procedures if alerted to a
       potential change in Medicaid status or other eligibility criteria.

Payor of last resort status ensured mainly through automated Medicaid matches

       All ADAPs rely on regular, automated matches with Medicaid databases as the primary
       tool to assure that ADAP funds are being used as the payor of last resort. The ADAPs
       focus their enforcement energies on Medicaid since they feel it is the most likely source of
       overlapping funding and they have the greatest ability to enforce compliance. Other
       techniques used to enforce payor of the last resort status include explicit instructions




    Evaluation Systems: ADAP                    11                                     OEI-05-98-00390
       written into pharmacy contracts and highlighted on enrollment forms and soliciting
       information regarding other third-party insurance on client enrollment forms.

       Medicaid matches are a part of the standard ADAP enrollment process. In the majority of
       ADAPs we visited, Medicaid receipt disqualifies applicants from ADAP eligibility. In
       order to enforce this, ADAPs automatically cross check all applicants against the Medicaid
       rolls. The ADAPs we visited all have on-line capacity to perform this check. The ease
       and speed with which this automated match occurs allows ADAPs to perform this check
       with every application at the time of application and without compromising a client’s
       access to necessary drugs.

       Periodic matches of enrollment files to Medicaid membership files are also conducted to
       monitor client Medicaid eligibility status which can fluctuate over time. It is typical
       procedure to approve applicants for ADAP who appear to be Medicaid eligible while also
       helping them apply for Medicaid benefits. Medicaid eligible HIV-infected persons can also
       receive ADAP to aid in spend down or cost sharing requirements of Medicaid or if they
       have limited Medicaid coverage. The periodic checks against the Medicaid rolls allows
       the ADAPs to monitor on-going client transitions from ‘Medicaid Pending’ status to full
       Medicaid benefits so the appropriate program is billed. The ADAPs vary tremendously in
       how often they perform this on-going, automated check. Some ADAPs check on a
       monthly basis, some weekly, and others check with every prescription request.

       One weakness in the current system is the difficulty of recouping payments from Medicaid
       for those ADAP clients who cycle onto Medicaid while still receiving benefits through
       ADAP. Since the matches do not occur on a daily basis, and some ADAPs go as long as a
       month before checking the Medicaid rolls, there is the potential for ADAPs to incur costs
       for Medicaid-covered services. Of the eight ADAPs interviewed, only one mentioned
       having a way to bill Medicaid retroactively. Upon discovering an overpayment, this drug
       assistance program withholds future payments to the respective pharmacy for the amount
       billable to Medicaid. One other ADAP indicated in their application for funds that they
       have negotiated a way to retroactively bill Medicaid.

Cost containment strategies are used to limit drug expenses

       Fiscal control over expenditures is further maintained by employing a variety of cost
       containment strategies to purchase the drugs at the lowest possible price. Six of the eight
       ADAPs purchase drugs through Section 602 of the Veteran’s Health Care Act. This
       allows them to purchase drugs at a discounted Public Health Service (PHS) price or
       access a rebate option. The Office of Drug Pricing that administers the Federal Drug
       Pricing Program for purchasing drugs at the PHS price requires ADAPs to follow
       established regulations in order to qualify. These regulations were designed to avoid the
       diversion of drugs purchased under this program to non-eligible patients. Thus, for these
       drug assistance programs, there is an additional level of Federal control.


    Evaluation Systems: ADAP                   12                                      OEI-05-98-00390
       For those States where the Federal drug discount pricing program is not an available
       option due to program structure, multiple other strategies are pursued. These include
       negotiating savings off of the Average Wholesale Price (AWP) and voluntary rebate
       programs. The States we visited have negotiated from 10 to 15 percent off of the AWP.
       These States also typically search for further savings through avoiding or reducing
       infrastructure costs potentially incurred through storing and distributing the drugs.

       Despite the efforts individual State ADAPs are making to ensure they are purchasing
       drugs at the lowest possible price, variations in the purchase prices States are paying
       remain. Each AIDS Drug Assistance Program is allowed to craft their own cost
       containment strategy. This allows for maximum State flexibility, but it also means States
       have only their own resources and ingenuity to rely upon to overcome the barriers to
       accessing the lowest drug prices. Some ADAPs suggested that HRSA and the Health
       Care Financing Administration (HCFA) assume a leadership role at the national level in
       order to obtain the best possible drug prices for the ADAP program.

While most ADAPs rely on process measures to gauge
program progress, a few are developing ways to measure
client outcomes
       The AIDS drug assistance program was conceived as a means to provide prescription
       drugs to HIV infected individuals who were uninsured or underinsured. In response to
       this and tremendous funding pressures, some ADAPs have limited their activities to the
       process of supplying prescription drugs to HIV-infected persons in need. They view the
       program primarily as a financing and distribution mechanism. However, an increasing
       number of administrators are taking on the responsibility of monitoring program impact to
       improve program efficiency and effectiveness and to respond to demands for greater
       accountability.

Most ADAPs track client utilization of drugs to monitor program success

       Most ADAP administrators reported that they rely on the utilization data reported in their
       regular program reports to assess the success of their program. The utilization reports
       typically provide, in aggregate, the number of clients actively enrolled and the number of
       drugs prescribed by drug class or specific drug. Often they will break out utilization by
       gender, race/ethnicity and age. A few ADAPs also regularly track enrollment and
       utilization trends by sub-population or targeted neighborhoods. Utilization goals are
       outlined in the Implementation Plan in each year’s application for funding.

       A few of the AIDS Drug Assistance Programs currently, or plan to, take this review of
       utilization data a step further by using the data as a basis to extrapolate health outcomes.



    Evaluation Systems: ADAP                    13                                      OEI-05-98-00390
       This analysis involves reviewing drug utilization data to determine how closely the drugs
       dispensed match the aggressive drug regimens recommended by the National Institutes of
       Health/Public Health Service (NIH/PHS) Guidelines for the Use of Antiretroviral Agents
       in HIV Infected Adults and Adolescents1. If the analysis reveals that ADAP prescriptions
       accurately mirror NIH/PHS guidelines, these ADAP administrators assume their clients
       are benefitting from the positive health outcomes attributed to these drug therapies in the
       medical research. One ADAP conducts a quarterly analysis comparing drug usage to
       NIH/PHS guidelines. Another ADAP is planning on examining prescribing patterns as
       well as utilization patterns by reviewing a random selection of ADAP clients’ medical
       charts.

A few ADAPs are planning on tracking individual client health outcomes to
determine program success

       While the majority of AIDS Drug Assistance Programs are currently using process
       measures to track program functioning and outcomes, a few ADAPs are planning on
       incorporating client health outcomes into their tracking systems in order to document
       program impact. Outcome measures under consideration include CD4 counts, viral loads,
       opportunistic infections, and hospital admissions. One ADAP is struggling to move
       beyond strict measures of health outcomes by developing broader measures of quality of
       life. They are interested in tracking how long their clients are ambulatory, to what extent
       their clients can take care of themselves, the number and length of hospitalizations, and the
       development and duration of opportunistic infections.

       Most ADAPs developing outcome measures plan to track the data for these measures by
       augmenting their current client-level, administrative data systems. They plan to request
       pertinent clinical information on the original enrollment form and subsequent forms
       submitted for re-eligibility determination. A few ADAPs are already capturing CD4
       counts in this manner, but none are currently tracking the variations over time as a
       measure of client health. The clinical information obtained on the enrollment form will be
       input into the current database where it can be linked to existing client utilization data for
       analysis. One ADAP indicated they would be tracking outcome measures in another year.
       Other ADAPs felt the development of outcome measures would take a few years.

       One of the ADAPs planning on developing outcome measures also plans to assess client
       outcomes by means of an independent evaluation. Over the next year and a half, they plan



       1	       These guidelines contain recommendations for the clinical use of antiretroviral agents in the
                treatment of HIV-infected adults and adolescents. A separate document contains
                pediatric-specific issues related to antiretroviral therapy. These guidelines were developed to
                serve as a companion document to the therapeutic principles formulated by the National Institute
                of Health Panel to Define Principles of Therapy of HIV infection.


    Evaluation Systems: ADAP                          14                                           OEI-05-98-00390
       to review a random selection of clients. This special project will focus on client’s clinical
       outcomes, length of participation in the ADAP program and the extent to which non-
       adherence to the prescribed drug regimen negatively impacts health outcomes.

Some ADAP administrators feel that assessing client health outcomes is beyond
the scope of ADAP

       Some ADAP administrators feel that measuring outcomes is not an appropriate way to
       expend limited resources. They believe the process measures tracked in their utilization
       reports are sufficient to judge their program’s performance against the goal of efficiently
       distributing prescription drugs on the formulary to uninsured or underinsured HIV-
       infected individuals. As one ADAP administrator stated, “We are just responsible for
       getting drugs to folks who need them and this is where our limited money should go.”

       Some ADAP administrators also argue that it is best to rely on medical research
       professionals to measure clinical outcomes. According to these respondents, in order to
       get reliable results on clinical outcomes, outcome evaluations should be controlled clinical
       studies. These types of studies are best directed by skilled researchers who have the
       expertise to properly conduct such evaluations and access to the necessary resources.

       Finally, several ADAP administrators feel that requiring ADAPs to measure client
       outcomes would duplicate work completed by the medical evaluation field. Medical
       studies already exist on the effects of the drugs since all approved drugs are put through
       extensive clinical trials prior to Food and Drug Administration approval. These studies
       demonstrate what the expected outcomes for a given drug regimen should be. Only drugs
       that are proven to reduce HIV/AIDS symptoms and prolong life are placed on the
       formulary to be distributed by ADAP. Thus, the ADAP administrators reason, as long as
       the program ensures that it is fulfilling prescrip`tions according to the prescribed
       guidelines, they should be able to assume that their medical outcomes reflect the outcomes
       demonstrated in medical research. As one administrator put it, “ADAP outcomes can only
       be the outcomes predicted by medical studies.”




    Evaluation Systems: ADAP                     15                                      OEI-05-98-00390
ADAPs are conducting minimal assessments of whether they
are reaching populations in need
While all of the sample ADAPs conduct periodic matches of client and
epidemiological data, they conduct little additional research to determine whether
they are reaching the populations in need

       All ADAPs indicated that they match client demographics to the demographic profile of
       the epidemic to measure how they are meeting population needs. The majority of ADAPs
       perform this analysis annually. Some ADAPs perform this analysis more frequently, on an
       “as needed basis.” Typically, the analysis consists of comparing the demographics of
       enrolled clients to AIDS surveillance data broken out by gender, race/ethnicity and age. A
       few of the ADAPs we visited make use of HIV prevalence estimates. The two data sets
       are compared in order to locate any discrepancies. These discrepancies are explored as
       possible areas of unmet need to address in the future.

       However, many ADAP administrators expressed great reservations about judging the
       effectiveness of their programs by this simple methodology. Their major concern is that
       Ryan White AIDS Drug Assistance Programs are not the only source of funding for
       HIV/AIDS medication. A certain proportion of HIV/AIDS cases access drugs through
       State Medicaid programs, private insurance or clinical trials. One ADAP study found that
       90 percent of the HIV-infected residents in an area with disproportionately low ADAP
       enrollment rates were enrolled in Medicaid.

       Despite the disadvantages of relying on an epidemiological match to assess program
       effectiveness and growing pressure to better assess the needs of traditionally underserved
       populations, ADAPs have not found other, more sophisticated means to assess whether
       they are reaching populations in need. The sources ADAPs mentioned they rely on for
       information regarding unmet need and access to services include activist groups, the
       ADAP advisory boards, and the Statewide Coordinated Statement of Need’s assessment
       of overall State needs. Only three of the ADAPs we visited indicated receiving
       information from planning council or consortia needs assessment efforts.




    Evaluation Systems: ADAP                   16                                     OEI-05-98-00390
                        RECOMMENDATIONS

To promote outcome measurement, HRSA should encourage
ADAPs to compare utilization data to recommended clinical
guidelines
      As a first step in gathering a better sense of program impact, HRSA should encourage
      drug assistance programs to review whether drugs are dispensed in accordance with the
      NIH/PHS Guidelines for the Use of Antiretroviral Agents in HIV Infected Adults and
      Adolescents. To the extent that the comparison reveals that drug distribution accurately
      mirrors the guidelines, ADAP administrators and HRSA can assume that clients are
      benefitting from the positive health outcomes attributed to specific drug therapies
      evaluated in medical research studies.

      To create a more meaningful picture of program impact, HRSA should also encourage
      ADAPs to expand their relationships with Medicaid to enable an annual exchange of
      information on HIV-related drugs dispensed to ADAP clients. The resulting data match
      would render a more complete picture of clients’ access to prescription drugs. It would
      also be helpful, where possible, to establish data exchanges with the other drug
      reimbursement sources such as private insurance companies and other pharmacy assistance
      programs.

      Most ADAPs already have data relationships with State Medicaid offices in order to verify
      payor of last resort status. The HRSA could encourage ADAPs to expand these data
      sharing arrangements to include an interchange of utilization data. The model data sharing
      agreement disseminated as part of the 1998 inter-agency agreement between HRSA,
      HCFA, and the CDC could be used. This inter-agency effort was undertaken to facilitate
      data sharing between State Medicaid and other health agencies to support program
      monitoring, promote the development of common performance measures across multiple
      programs and improve the quality of care for vulnerable populations.

      While matching ADAP distribution patterns with the NIH/PHS guidelines would
      inevitably lack some information regarding drug utilization, it would, nonetheless, provide
      a general sense of ADAP’s contribution to client health outcomes. This approach to
      outcome measurement corresponds with a highly regarded method of outcome
      development promoted by the United Way. This approach recognizes the practical
      limitations faced by program administrators searching for a way to gage program impact.
      These limitations typically mean that rigorous program impact evaluations are beyond the
      means and scope of these agencies. Thus the United Way endorses using outcome
      measures of contribution as the first step in building meaningful outcome measures.


   Evaluation Systems: ADAP                   17                                     OEI-05-98-00390
      Beyond providing a broad measure of contribution, this comparison would also allow for
      the analysis of patterns and trends that would suggest more in-depth explorations of client
      outcomes and program impact. For example, if disparities in the quality of care are
      detected in the client population through this broad analysis, ADAPs could engage in a
      more in-depth examination of utilization in specific sub-populations. This data and
      analysis could be provided to clinical providers as a form of feedback. The ADAPs might
      also want to take the next step of surveying physician prescribing practices.

      This approach to outcome measurement also integrates the United Way philosophy of
      using data sources readily available to agencies. Most AIDS drug assistance programs are
      already relying on client utilization data as a means to gage program success. Asking
      them to analyze these utilization patterns against a national standard is a logical next step
      to a more sophisticated understanding of program impact. In fact, some ADAPs already
      routinely perform this analysis. All of the ADAPs that we interviewed have utilization
      data at their disposal and the capacity to perform this analysis. Further, the current Ryan
      White application guidance already requires ADAPs to report the number of clients
      receiving protease inhibitors. The HRSA could simply expand this requirement to include
      a broader range of drugs along with a narrative comparison of how utilization patterns
      match the recommended clinical guidelines.

HRSA should encourage collaborative efforts among Ryan
White Titles to monitor client adherence to drug regimens
      Since positive health outcomes cannot be expected unless clients adhere to prescribed
      drug regimens, HRSA should work with adherence initiatives where they exist and
      encourage other Title I and Title II grantees, in consultation with ADAPs, to promote and
      evaluate adherence. Given the difficulty of this complex behavioral and socio-economic
      issue, initiatives will likely require a combination of resources and a collaboration of
      organizations. Medical providers funded by Title I and Title II are responsible for
      prescribing the most appropriate drug regimen for the patient. Medical and other support
      service providers that have on-going personal interaction with the clients have the capacity
      to educate and monitor patients on adherence issues. The ADAP program could
      contribute utilization trend data and information on which drugs clients are obtaining.

      The HRSA could encourage collaborative adherence initiatives by disseminating the latest
      medical research on the impact of non-adherence and offering technical assistance on how
      to promote and evaluate adherence. Recommendations, best practices and implementation
      models could stem from adherence studies currently underway.

      Recognizing that adherence ensures their clients will obtain the maximum benefit from
      advanced drug therapy, several locations are already grappling with this difficult issue.
      One planning council outlined their plans to make adherence a service category in order to


   Evaluation Systems: ADAP                    18                                      OEI-05-98-00390
      allocate funds to an adherence initiative. One of the grantees we visited has been awarded
      funds through the Special Projects of National Significance program to study adherence.
      Two of the ADAPs we interviewed are involved in adherence initiatives. One is
      monitoring patient adherence by generating a list of clients who do not pick up their refills
      from the pharmacy and are past due to receive their medications. Pharmacists perform a
      weekly manual review of refill logs to see which patients have not picked up their
      prescriptions. The file is flagged for further follow-up initiatives including contacting the
      patient directly or contacting the patient’s case manager.

      Techniques for adherence promotion include the creation and dissemination of patient
      education materials and behavior modification programs. Monitoring methods include
      supervised drug intake, on-going contact through beepers and regularly convened peer-
      support groups. In cases where limited resources do not allow for such intense
      monitoring, adherence information could be collected through limited adherence studies
      using random sampling techniques.

      The HRSA should facilitate the spread of these efforts to help ensure that clients are
      reaping the benefits of advanced drug therapy. Gathering adherence information is the
      only way that ADAP programs can assure their clients are benefitting from the drugs the
      program is providing and that the drugs are having the intended impact.

The HRSA should instruct ADAPs to collaborate with Title I
and Title II needs assessment efforts to assure that they
explicitly evaluate medication therapy needs
      The ADAPs need a more sophisticated way to assess whether or not they are meeting the
      medication needs of the HIV/AIDS population. The ADAPs are being called to greater
      accountability for their efforts to reach and serve traditionally underserved populations.

      The current method of matching the demographics of ADAP clients with the
      demographics of local HIV cases provides useful information on the needs of infected
      persons. However, as ADAP administrators indicated, it is a simple method that paints an
      incomplete picture. Several ADAP administrators pointed out that relying on a match of
      ADAP cases to existing public health data overestimates unmet need since it does not take
      into account other programs providing drug therapy. Other shortcomings include lack of
      HIV prevalence data in some States and the reliance on enrollment data rather than active
      cases to estimate program utilization.

      Not only is the currently utilized methodology unreliable, but it only provides a general
      picture of unmet need. It does not provide the ADAPs with a reliable way to pinpoint
      specific subpopulations in various regions of the State. It also does not present a



   Evaluation Systems: ADAP                    19                                      OEI-05-98-00390
   qualitative picture of unmet need. Barriers to care, historic mistrust of the medical
   profession and the stigma of HIV add a complexity to the needs of various sub-
   populations of infected persons which are often not reflected through a quantitative
   analysis of unmet need.

   Finally, properly judging unmet need is essential not only to ensure that medications are
   equitably distributed to populations in need, but also to better target current ADAP
   outreach efforts. The U. S. Surgeon General David Satcher has called for ADAP
   programs to do a better job of targeting minority populations. The ADAP programs must
   have a reliable way to determine the subpopulations in their State that require further
   attention in order to better target their outreach initiatives.

   While ADAPs may lack the resources and funding to conduct intensive outreach efforts
   aimed at specific subpopulations, they do have the responsibility to make sure that all
   those in need of HIV medication are aware of the program in order to ensure that existing
   access to health care disparities are not simply perpetuated by ADAP. One way to
   accomplish this would be to target outreach efforts to specific organizations that focus on
   traditionally underserved populations.

   To better assess unmet need, HRSA should instruct ADAPs to appoint liaisons or create a
   mechanism to work with and support Title I and Title II needs assessment efforts to assure
   a comprehensive assessment of prescription drug needs. Title I and Title II grantees are
   required to conduct routine needs assessments as part of their priority setting and
   allocation processes. The surveys and focus groups used to collect information for these
   needs assessments typically capture information regarding unmet need for prescription
   drugs. However, since the goal of the assessment is to gather information on primary
   medical care and support services, the information on medication therapy needs tends to
   be very basic. Furthermore, it does not appear that this information is routinely relayed to
   ADAP administrators.

   The ADAPs should also collaborate with Title I and Title II needs assessment efforts to
   make sure that the Title I and Title II grantees actively solicit respondents from the
   currently enrolled ADAP population as well as those HIV-infected persons who are
   currently not enrolled in the ADAP. This would allow ADAPs to access information from
   a broader spectrum of HIV-infected individuals and provide a richer understanding of
   unmet need and barriers to care.

   The ADAP needs assessment liaison could be appointed from the administrative staff or
   the ADAP advisory boards. In some States, these advisory boards already take on
   responsibilities beyond determining the ADAP formulary. In particular, two of the
   ADAPs visited have advisory bodies that provide overall program and policy guidance and
   recommendations. Like Title I planning councils and Title II consortia, they advise on all
   programmatic issues and strive to be representative of the epidemic. The liaison could


Evaluation Systems: ADAP                    20                                     OEI-05-98-00390
   work with the Title I and Title II planning bodies to assure that they collect needed
   information to assist the ADAPs in fulfilling their mission of supplying drug therapy to
   HIV-infected individuals in need.




Evaluation Systems: ADAP                    21                                     OEI-05-98-00390
                     AGENCY COMMENTS

   The HRSA provided comments on the draft report in which they did not concur with the
   first and third recommendations. Where appropriate, we changed the report to reflect
   their comments, concerns and technical corrections. The complete text of HRSA’s
   comments can be found in Appendix A.

   Regarding the first recommendation to encourage ADAPs to match client utilization data
   to NIH/PHS guidelines as a broad measure of program impact, HRSA stated that they did
   not have the statutory authority to require ADAPs to perform this analysis. The HRSA
   also stated that the data available to ADAPs would be insufficient to make meaningful
   comparisons and extrapolate client health outcomes.

   In response to HRSA’s concern regarding their ability to require ADAPs to perform
   evaluative functions, the recommendation was altered to remove the implication of a
   statutory requirement. However, developing outcome measures for ADAP remains an
   important step in the evolution of the program. In our interviews, we found that many
   ADAPs have moved beyond a limited sense of mission and accountability. They do not
   view the drug assistance program as merely a financing mechanism and recognize the
   importance of documenting program impact. They recognize that measuring outcomes
   provides a means to promote the achievements of the program in terms of its most
   valuable contributions - the quality and prolonged life of its clients.

   Further, the match is a logical first step in outcome development. The HRSA already
   requires ADAPs to present a break-out of the utilization of protease inhibitors in their
   annual application for funds. Our recommendation would simply broaden this requirement
   to include an analysis of utilization of nationally recommended drug therapies.

   We appreciate HRSA’s concerns regarding the impact of incomplete utilization data.
   Since ADAP is only one of many reimbursement mechanisms for HIV drug therapies, it is
   true that any picture of client drug utilization constructed by ADAP would not accurately
   represent total client access to HIV medication. It is for this reason that we suggested
   that ADAP expand their current relationships with Medicaid to include a data match on
   drug utilization. This data sharing agreement could build on the relationships already
   established with Medicaid in order to verify payor of last resort status and the 1998
   HRSA, HCFA and CDC inter-agency agreement to promote the development of
   integrated public health information systems.

   While matching ADAP distribution patterns with the NIH/PHS guidelines would
   inevitably lack some information regarding drug utilization, it would, nonetheless, provide
   a general sense of ADAP’s contribution to client health outcomes. In fact, the measure


Evaluation Systems: ADAP                   22                                     OEI-05-98-00390
   was never intended to serve as a rigorous measure of program impact. We recognize that
   this type of evaluation is beyond the scope of ADAP agencies and that leading medical
   institutions around the country are involved in efforts to understand the impact of various
   drug combinations on client health outcomes. Our recommendation is based on the
   United Way model which allows programs to take credit for their contribution to client
   outcomes while recognizing the practical limitations on assessing attribution in the absence
   of complete data. A few ADAPs are already engaged in this type of analysis and have
   found it a useful tool for understanding program impact.

   The HRSA also did not concur with the recommendation that ADAPs should collaborate
   with Title I and Title II needs assessment efforts. They stated that the drug assistance
   programs were not the appropriate entities to take the lead in collaborative efforts with the
   other Ryan White programs. They were also concerned by the suggestion that the ADAP
   advisory boards could take on the responsibility of collaboration since ADAP advisory
   boards are typically clinical bodies supplying ADAP formulary advice.

   It was not our intention to imply that ADAP should take the lead in collaborating between
   the Ryan White programs. Rather, our recommendation directed ADAPs to more closely
   participate in the required Title I and Title II needs assessment efforts in order to have
   their evaluation needs better met. We offered the ADAP advisory boards as a possible
   liaison source only where the board was already functioning in a larger capacity than
   formulary advisement. The specific designation of liaison responsibilities would be the
   responsibility of each ADAP administration. Of ultimate importance is that meaningful
   collaboration happens on a continuing basis. The HRSA’s stated intention to include
   instructions in the Title I application guidance regarding collaboration with ADAP reflects
   our intention to promote the level of meaningful collaboration between ADAP and the
   other Ryan White programs.




Evaluation Systems: ADAP                    23                                     OEI-05-98-00390
                                              APPENDIX A

                           Agency Comments





Evaluation Systems: ADAP          24               OEI-05-98-00390
                                              APPENDIX A

                           Agency Comments





Evaluation Systems: ADAP          25               OEI-05-98-00390
                                              APPENDIX A

                           Agency Comments





Evaluation Systems: ADAP          26               OEI-05-98-00390
                                              APPENDIX A

                           Agency Comments





Evaluation Systems: ADAP          27               OEI-05-98-00390
                                              APPENDIX A

                           Agency Comments





Evaluation Systems: ADAP          28               OEI-05-98-00390
                                              APPENDIX A

                           Agency Comments





Evaluation Systems: ADAP          29               OEI-05-98-00390
                                              APPENDIX A

                           Agency Comments





Evaluation Systems: ADAP          30               OEI-05-98-00390
                                              APPENDIX A


                           Agency Comments





Evaluation Systems: ADAP          31               OEI-05-98-00390
                                                                        APPENDIX B



               Related Office of Inspector General Reports

The Ryan White CARE Act: Local Implementation Issues (OEI-05-93-00336)

The Ryan White CARE Act: Examples of Local Coordination (OEI-05-93-00335)

The Ryan White CARE Act: Special Projects of National Significance (OEI-05-93-00332)

The Ryan White CARE Act: Technical Report of 1992 Expenditures (OEI-05-93-00334)

The Ryan White CARE Act: Funding Formulas (OEI-05-93-00330)

Medicaid Managed Care and HIV/AIDS (OEI-05-97-00210)

Audit of State AIDS Drug Assistance Programs’ Use of Drug Price Discounts (A-01-97-01501)

Review of Maximizing Drug Discounts Under the Missouri Ryan White Program
(A-01-97-00926)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990, Title II,
Administered by the Health Resources and Services Administration (A-01-97-01500)

Audit of Eligibility Under Title I of the Ryan White Comprehensive AIDS Resource Emergency
Act of 1990, New York Metropolitan Area (A-02-95-02517)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990, Title II,
Administered by the State of Connecticut (A-01-96-01501)

Audit of the Ryan White Comprehensive AIDS Resource Emergency Act of 1990 in the Boston
Metropolitan Area for Fiscal Year 1994 (A-01-95-01504)




    Evaluation Systems: ADAP                32                                   OEI-05-98-00390
